                 

                 

                 
                        U.S. ENVIRONMENTAL PROTECTION AGENCY 
                 
                        OFFICE OF INSPECTOR GENERAL 




                        Results of Technical Network
                        Vulnerability Assessment:
                        EPA’s National Vehicle and
                        Fuel Emissions Laboratory
                        Report No. 12-P-0900               September 27, 2012




Scan this mobile code
to learn more about
the EPA OIG.
 Report Contributors:	                               Rudolph M. Brevard
                                                     Warren Brooks
                                                     Scott Sammons




Hotline 

To report fraud, waste, or abuse, contact us through one of the following methods:

e-mail:    OIG_Hotline@epa.gov                      write:    EPA Inspector General Hotline
phone:     1-888-546-8740                                     1200 Pennsylvania Avenue NW
fax:       202-566-2599                                       Mailcode 2431T
online:    http://www.epa.gov/oig/hotline.htm                 Washington, DC 20460
                        U.S. Environmental Protection Agency 	                                                  12-P-0900
                                                                                                        September 27, 2012
                        Office of Inspector General


                        At a Glance

Why We Did This Review              Results of Technical Network Vulnerability
We sought to conduct network        Assessment: EPA’s National Vehicle and Fuel
vulnerability testing of the        Emissions Laboratory
U.S. Environmental Protection
Agency’s (EPA’s) National
Vehicle and Fuel Emissions           What We Found
Laboratory (NVFEL) Local Area
Network to identify resources       While our assessments of EPA’s NVFEL server room found no weaknesses with
that contained commonly             physical controls and environmental controls, vulnerability testing of networked
known high-risk and medium-         resources located in the NVFEL identified Internet Protocol addresses with
risk vulnerabilities. We also       potentially 9 critical-risk, 70 high-risk, and 297 medium-risk vulnerabilities.
sought to assess the physical       If not resolved, these vulnerabilities could expose EPA’s assets to unauthorized
controls and environmental          access and potentially harm the Agency’s network. The laboratory and the Office
controls around critical            of Environmental Information manage the resources located in NVFEL that
information technology assets       contained these weaknesses. We found a discrepancy between the offices
located in the NVFEL. We            concerning responsibility for certain equipment located in the NVFEL. However,
conducted this audit as part of     NVFEL provided documentation which placed ownership responsibility with the
the annual review of EPA’s          Office of Environmental Information and Customer Technology Solutions for the
information security program as     devices in question.
required by the Federal
Information Security                 Recommendations and Agency Corrective Actions
Management Act.
                                    We recommend that the Senior Information Official within the Office of Air and
This report addresses the           Radiation and the Office of Environmental Information:
following EPA Goal or                 	 Provide the OIG a status update for every critical-risk, high-risk and
Cross-Cutting Strategy:                  medium-risk vulnerability identified by the technical scanning tool within
                                         30 days of this report.
 Strengthening EPA’s                 	 Create plans of action and milestones in the Agency’s Automated Security
  Workforce and Capabilities             Self-Evaluation and Remediation Tracking system for all vulnerabilities
                                         according to Agency procedures within 30 days of this report.
                                      	 Perform a technical vulnerability assessment test of assigned networked
                                         resources within 60 days to confirm completion of remediation activities.

                                    We also recommend that the Senior Information Official within the Office of
                                    Environmental Information:
                                       Disconnect any networked resources without documented ownership
                                         responsibility.
                                       Complete an inventory of all Customer Technology Solutions equipment
                                         prior to implementation of EPA's new managed desktop support system.

For further information, contact    Representatives from both offices acknowledged the existence of the
our Office of Congressional and     vulnerabilities and stated they have begun developing corrective actions to
Public Affairs at (202) 566-2391.   address the risks related to these weaknesses. NVFEL reported it remediated all
                                    high-risk vulnerabilities under its responsibility prior to the issuance of this report.
The full report is at:
www.epa.gov/oig/reports/2012/
20120927-12-P-0900.pdf              The detailed testing results have already been provided to Agency
                                    representatives. Due to the sensitive nature of the report’s technical findings, the
                                    technical details will not be made available to the public.
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                               THE INSPECTOR GENERAL




                                       September 27, 2012

MEMORANDUM

SUBJECT:	 Results of Technical Network Vulnerability Assessment:
          EPA’s National Vehicle and Fuel Emissions Laboratory
          Report No. 12-P-0900


FROM:          Arthur A. Elkins, Jr.

TO:            Betsy Shaw
               Senior Information Official        

               Office of Air and Radiation 


               Renee Wynn
               Principal Deputy Assistant Administrator and Senior Information Official
               Office of Environmental Information


This is our quick reaction report on the subject audit conducted by the Office of Inspector
General (OIG) of the U.S. Environmental Protection Agency (EPA). Due to the sensitive nature
of the technical findings, we are issuing this report for urgent management remediation. The site
assessment was conducted in conjunction with our annual audit of EPA’s information security
program as required by the Federal Information Security Management Act. This report provides
the summary of our security assessment of networked resources located at EPA’s National
Vehicle and Fuel Emissions Laboratory (NVFEL) in Ann Arbor, Michigan.

Our tests disclosed that networked resources at NVFEL contained potentially 9 critical-risk,
70 high-risk, and 297 medium-risk vulnerabilities. The laboratory and Office of Environmental
Information (OEI) are responsible for managing resources located in NVFEL. To facilitate
immediate remediation actions, we provided your offices’ representatives with the technical
results during our site visit. Upon receipt of the results, NVFEL representatives identified OEI
owned devices located on site. After providing OEI with a list of these devices, OEI stated that
some of the devices were not under its responsibility. However, NVFEL provided documentation
which placed ownership responsibility with OEI and Customer Technology Solutions for the
devices in question. Ultimately, NVFEL representatives plan to take responsibility for remediating
the vulnerabilities existing on the OEI devices in dispute. The NVFEL reported that it remediated
all high-risk vulnerabilities under its responsibility prior to the issuance of this report.


12-P-0900                                                                                         1
We reported similar concerns about computer equipment accountability in EPA OIG Report No.
11-P-0705, EPA’s Contract Oversight and Controls Over Personal Computers Need Improvement,
September 26, 2011. Discrepancies in ownership responsibilities of networked resources can
potentially lead to untimely vulnerability remediation or unresolved vulnerabilities that could
expose EPA’s assets to unauthorized access and potentially harm the Agency’s network. As EPA
moves from Customer Technology Solutions to a new contract for its managed desktop support
system, it is important to resolve any discrepancies resulting from accountability for EPA assets
that may be included in this new contract.

We performed this audit work from February through September 2012 at EPA’s NVFEL in Ann
Arbor, Michigan. We performed this audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based on the audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions.

We conducted testing to identify the existence of commonly known vulnerabilities using a
commercially available network vulnerability assessment tool recognized by the National
Institute of Standards and Technology (NIST). We interviewed EPA personnel responsible for
managing the networked resources located in NVFEL. We reviewed relevant EPA interim
procedures to obtain an understanding of the Agency’s Automated Security Self-Evaluation and
Remediation Tracking system used for recording identified weaknesses. We tested the Internet
Protocol addresses associated with networked resources located in NVFEL. We used the risk
ratings provided by the vulnerability software to determine the level of harm a risk could pose to
a networked resource due to the vulnerability and accepted the results from the software tool as
the level of risk to EPA’s network. Upon follow-up with your offices’ representatives, they
acknowledged the existence of the vulnerabilities and stated that some mitigation activities had
already begun related to these risks.

We performed an inspection of EPA’s NVFEL server room with key information technology
(IT) personnel to assess the physical controls and environmental controls around IT assets. We
interviewed Agency IT staff to determine the extent to which IT equipment is protected from
physical, environmental, and human threats. We used NIST Special Publication 800-53,
Recommended Security Controls for Federal Information Systems and Organizations, as the
template for evaluating IT security controls for the server rooms. We found no weaknesses
during the assessment.

Recommendations

We recommend that the Senior Information Official within the Office of Air and Radiation
and the Office of Environmental Information:

   1.	 Provide the OIG a status update for every critical-risk, high-risk, and medium-risk
       vulnerability identified by the technical scanning tool within 30 days of this report.



12-P-0900                                                                                        2
   2.	 Create plans of action and milestones in the Agency’s Automated Security Self-
       Evaluation and Remediation Tracking system for all vulnerabilities according to Agency
       procedures within 30 days of this report.

   3.	 Perform a technical vulnerability assessment test of assigned networked resources within
       60 days to confirm completion of remediation activities.

We also recommend that the Senior Information Official within the Office of Environmental
Information:

   4.	 Disconnect any networked resources without documented ownership responsibility.

   5.	 Complete an inventory of all Customer Technology Solutions equipment prior to the
       implementation of EPA's new managed desktop support system.

Action Required

Please provide written responses to this report within 30 calendar days. You should include a
corrective action plan for agreed-upon actions, including milestone dates.

Due to the sensitive nature of the report’s technical findings, the technical details are not
included in this report and will not be made available to the public. The OIG plans to post on the
OIG’s public website the corrective action plans that you provide to us that do not contain
sensitive information. Therefore, we request that you provide the response to recommendation 1
in a separate document; we will not make that response available to the public if it contains
sensitive information.

Your responses should be provided as Adobe PDF files that comply with the accessibility
requirements of Section 508 of the Rehabilitation Act of 1973, as amended. Except for your
response to recommendation 1, which will not be posted if it contains sensitive information, your
responses should not contain data that you do not want to be released to the public; if those
responses contain such data, you should identify the data for redaction or removal.

If you or your staff have any questions regarding this report, please contact Patricia H. Hill,
Assistant Inspector General for Mission Systems, at (202) 566-0894 or hill.patricia@epa.gov; or
Rudolph M. Brevard, Product Line Director, Information Resources Management Assessments,
at (202) 566-0893 or brevard.rudy@epa.gov.




12-P-0900                                                                                        3
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                    RECOMMENDATIONS                                                               POTENTIAL MONETARY
                                                                                                                                   BENEFITS (in $000s)

    Rec.    Page                          Subject                          Status1         Action Official            Planned     Claimed    Agreed-To
    No.      No.                                                                                                     Completion   Amount      Amount
                                                                                                                        Date

     1        2     Provide the OIG a status update for every critical-      U        Senior Information Official,
                    risk, high-risk, and medium-risk vulnerability                    Office of Air and Radiation
                    identified by the technical scanning tool within                 and Office of Environmental
                    30 days of this report.                                                   Information

     2        3     Create plans of action and milestones in the             U        Senior Information Official,
                    Agency’s Automated Security Self-Evaluation and                   Office of Air and Radiation
                    Remediation Tracking system for all vulnerabilities              and Office of Environmental
                    according to Agency procedures within 30 days of                          Information
                    this report.

     3        3     Perform a technical vulnerability assessment test of     U        Senior Information Official,
                    assigned networked resources within 60 days to                    Office of Air and Radiation
                    confirm completion of remediation activities.                    and Office of Environmental
                                                                                              Information

     4        3     Disconnect any networked resources without               U       Senior Information Official,
                    documented ownership responsibility.                              Office of Environmental
                                                                                             Information

     5        3     Complete an inventory of all Customer Technology         U       Senior Information Official,
                    Solutions equipment prior to the implementation of                Office of Environmental
                    EPA’s new managed desktop support system.                                Information




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is unresolved with resolution efforts in progress




12-P-0900                                                                                                                                                4
                                                                                Appendix A

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Assistant Administrator for Air and Radiation
Principal Deputy Assistant Administrator for Environmental Information and
       Senior Information Official
Senior Information Official, Office of Air and Radiation
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Senior Agency Information Security Officer
Audit Follow-Up Coordinator, Office of Air and Radiation
Audit Follow-Up Coordinator, Office of Environmental Information




12-P-0900                                                                                5
